= 5933

No.

IN THE

FiLED
JUL 19 2021

SUPREME COURT OF THE UNITED STATES

Kevin Deon Loggins Sr. ,

— PETITIONER

(Your Name)
VS.
State of Kansas,

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
0 Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
Sedgwick County District Court and Kansas Court of Appeals.

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
□ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
□ Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
□ The appointment was made under the following provision of law: K»S »A
1986 Supp. 22-4503(e) See Appendix-(A), n>ereto.

or

H] a copy of the order of appointment is appended.
/ta i*,

i), J&

W ^RECEIVED
JUL 2 7 2021

(Signatu *e)

SUPREMECOURT^1^

